Legal Printers,

LLC
5614 Connecticut Avenue, NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinters.com

February 1, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
Re:

Philip Jay Fetner v. Hotel Street Capital LLC, et al.

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Petition for Writ of
Certiorari referenced above contains 6,749 words, excluding the parts of the document
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,

Jack Suber, Esq.
Principal

LISA KAY NICHOLSON
Notary Public
State of Maryland
Montgomery County
My commission op. October 12,2022

w

/fib

Sworn and subscribed before me this 1st day of February 2021.

